           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 RISKS POSED BY DIGITAL PHOTOCOPIERS
        USED IN SOCIAL SECURITY
        ADMINISTRATION OFFICES

   September 2008      A-06-08-28076




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 18, 2008                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Risks Posed by Digital Photocopiers Used in Social Security Administration Offices
           (A-06-08-28076)


           OBJECTIVES
           Our objectives were to (1) determine whether the Social Security Administration (SSA)
           used digital photocopiers with memories capable of retaining sensitive information and
           (2) identify and review actions SSA had taken to mitigate the risks posed by the
           potential exposure of this sensitive information.

           BACKGROUND
           The Privacy Act of 1974 1 provides the framework for regulating the collection,
           maintenance, use, and dissemination of personal information by Federal executive
           branch agencies. In particular, the Privacy Act requires that each Agency

                     . . . establish appropriate administrative, technical and physical safeguards to
                     insure the security and confidentiality of records and to protect against any
                     anticipated threats or hazards to their security or integrity which could result in
                     substantial harm, embarrassment, inconvenience or unfairness to any
                     individual on whom information is maintained. 2

           The loss of personally identifiable information (PII) can result in harm, embarrassment,
           and inconvenience to individuals and may lead to identity theft or other fraudulent use of
           the information. Accordingly, SSA has responsibility under the law to appropriately
           safeguard sensitive PII, including PII on the hard drives of digital photocopiers. Most
           digital photocopiers manufactured in the past 5 years have hard drives. Digital
           photocopier hard drives retain previously copied or printed data. According to SSA
           staff, when the photocopier hard drive security issue first surfaced, the copier industry
           did not generally recognize the potential security risks associated with the memory
           retention capability of photocopier hard drives. SSA followed the industry’s lead on this

           1
               The Privacy Act of 1974, as amended, Pub. L. No. 93-579, 5 United States Code (U.S.C.) § 552a.
           2
               5 U.S.C. § 552a(e)10.
Page 2 - The Commissioner

issue. Now, photocopiers have emerged as intelligent system peripherals with
operating systems, hard drives, resident software programs and network server
applications. Left unprotected or unaccounted for, digital technology can increase the
potential for identity theft.

The Office of Acquisition and Grants (OAG) delegated sole acquisition authority to the
Office of Publications and Logistics Management, Reprographic Management Team
(RMT) to procure and manage reprographic equipment (photocopiers), services, and
supplies for all SSA Regional and Headquarters offices nationwide. With OAG
approval, RMT established 12 active Blanket Purchase Agreements (BPA) covering
reprographic equipment purchase, supplies, and maintenance services. As of
December 2007, RMT records indicated SSA had 4,663 photocopiers in use. The
inventory included 97 different photocopier models manufactured by 7 vendors.

RESULTS OF REVIEW
As of December 2007, 2,173 of the 4,663 photocopiers SSA had in-use nationwide
contained hard drives capable of retaining sensitive information. We found that SSA did
not effectively mitigate the risks posed by the potential exposure of sensitive
information. 3 During our review, we found SSA did not

•     sanitize or destroy photocopier hard drives upon disposal, as required, and

•     include a non-disclosure statement in its agreement with vendors that precludes the
      disclosure of sensitive information when photocopiers are taken off-site for repair.

Additionally, SSA’s inventory tracking system did not adequately (1) distinguish between
stand-alone photocopiers with no hard drives and photocopiers with hard drives or
(2) account for purchases in a timely manner.

SSA DID NOT SANITIZE PHOTOCOPIER HARD DRIVES BEFORE DISPOSITION

SSA did not comply with policy for sanitizing or destroying data stored on hard drives
upon disposal. For example, when SSA replaces a photocopier, a vendor delivers the
new photocopier and picks up the old photocopier at its respective location. SSA does
not sanitize or destroy information on the old photocopier’s hard drive before releasing it
to the vendor. As depicted in the table below, in Calendar Years 2006 and 2007, SSA
traded in 1,957 photocopiers on the purchase of new photocopiers. We found 454 of
the 1,957 photocopiers had hard drives.




3
    We are not aware of any reported cases of PII breach involving digital photocopiers.
Page 3 - The Commissioner

                                     RMT Copier Trade-Ins
                                   (Calendar Years 2006-2007)
                               With Hard Drives     454   23.2%
                                         Other    1,503   76.8%
                                          Total   1,957 100.0%

SSA did not have procedures in place to ensure that photocopier hard drives were
sanitized or destroyed. We were told the responsibility for sanitizing or destroying
photocopier hard drives had not been assigned within SSA or contracted to an outside
entity.

SSA’s Information Systems Security Handbook (ISSH) requires that hard drives be
sanitized before they are released to a vendor to prevent unauthorized disclosure of
information. 4 However, at the time of our review, SSA had not implemented procedures
to ensure photocopier hard drives were sanitized or destroyed. While there have been
no known unauthorized security breaches, there is a risk of exposing sensitive
information to unauthorized individuals.

NON-DISCLOSURE STATEMENT MISSING FROM SERVICE AGREEMENT

SSA did not comply with its own policy to mitigate the risks posed by the potential
exposure of sensitive information in the event a photocopier is sent off-site for repair.
SSA’s BPA does not include required wording for non-disclosure of information by the
servicing vendor when a photocopier with a hard drive is repaired off-site. The typical
wording related to off-site repairs observed on the BPAs states only the following.

          The Contractor may perform repair work at the Government site, or at the
          Contractor's local service branch. If the Contractor removes the equipment for
          repair, the Contractor shall provide a comparable loaner machine to the
          Government for temporary use at the time the Contractor removes the
          equipment for repair.

SSA’s BPAs should be updated to reflect SSA's policy on the disposal of information
technology media, which went into effect in 2006. The policy states, when a personal
computer, hard drive, or other storage device is sent off-site for repair, the repair
contract must include a requirement for non-disclosure of information by the servicing
vendor. 5 According to RMT staff, the current SSA policy in the ISSH regarding disposal
of technology media applies to photocopiers as well.

The approved dates of the BPAs reviewed ranged from September 17, 2001 to
December 22, 2005, a time period that preceded this 2006 policy. When the disposal of

4
 Information Systems Security Handbook 10.3.1, Disposal/Donation of Information Technology
Equipment, June 2006. Although the policy does not specify photocopiers, SSA officials advised us the
policy applies to photocopier hard drives.
5
    Id.
Page 4 - The Commissioner

technology media policy was issued in 2006, RMT continued to order reprographic
equipment from existing BPAs established by OAG before the 2006 security policy
change.

On June 18, 2008, we were advised that SSA was negotiating with all current BPA
holders to include language that hard drive sanitation must be completed in instances
where photocopiers are (1) sent off-site for repair or when hard drives need to be
replaced, (2) relocated to different work sites, and (3) traded in for new photocopiers. In
addition, we were advised that RMT requested BPA modifications that will require
vendors to complete and submit a hard drive certification form that they have wiped or
destroyed the hard drive. Certain vendors can certify the presence of an automatic
overwrite feature for certain models that automatically wipes the information from the
hard drive. Completion of the form is required for each copier before the removal of
SSA’s copiers from Regional or Headquarters offices for any reason (repair, relocation
or replacement). RMT will retain a copy of each hard drive certification form while the
copier remains in service at SSA.

SSA’S PHOTOCOPIER INVENTORY TRACKING SYSTEM

RMT staff track photocopier inventory on Microsoft Excel spreadsheets. During our
review, we determined SSA’s photocopier inventory tracking system did not adequately

•   identify whether photocopiers contained hard drives, and
•   track photocopier purchases in a timely manner.

Hard Drives in Photocopiers Not Properly Identified

SSA’s system for tracking photocopiers with hard drives requires improvement. Instead
of relying on photocopier purchase documents, which record whether each photocopier
contained a hard drive, SSA relied on vendors to determine whether the photocopier
had a hard drive. Since hard drives were optional on some photocopier models, the
reliance on vendors for hard drive information was not always accurate. To illustrate,
using RMT’s December 2007 inventory data, we identified three photocopier models
where the inventory showed the photocopiers did not contain hard drives. Through
review of acquisition documentation, we determined hard drives were included on
269 of these photocopiers. Based on our review, RMT updated its inventory data to
indicate these 269 photocopiers contained hard drives. 6




6
 RMT updated its inventory to include one additional photocopier originally purchased without a hard
drive but later upgraded with a hard drive.
Page 5 - The Commissioner

                          RMT Photocopier Inventory Data
                                 (December 2007)
                     Pre-Audit                    Post-Audit
                  Type       # of Units       Type        # of Units
            With Hard Drives   1,903    With Hard Drives     2,173
                       Other   2,760               Other     2,490
                       Total   4,663               Total     4,663

We believe the system used to track photocopiers should be automated and accurately
identify the machines that contain hard drives. To automate its photocopier inventory
management and billing process, SSA entered into a contract in September 2007 for an
automated inventory system. SSA previously attempted to automate the inventory
process. In September 2002, SSA awarded a contract to redesign the RMT
photocopier inventory and vendor billing reconciliation processing system, which was
named the Reprographic Inventory Management System. In 2003, modifications were
issued to the contract, but the contract period expired before the work was completed.

Based on the statement of work under the 2007 contract award, the contractor will
migrate the current inventory into an upgraded version of the Office of Property
Management’s Sunflower Assets system.

Purchases Not Added to Inventory Timely

SSA did not record photocopier purchases in a timely manner. According to SSA,
employees track photocopier inventory on Microsoft Excel spreadsheets. However,
SSA did not add new inventory to the spreadsheets until the end of each photocopier’s
90-day warranty period. We were told newly purchased photocopiers were not added to
the inventory because RMT did not always know the serial number. By the end of the
warranty period, the serial number had been received from the vendor. By not tracking
purchases until the end of the 90-day warranty, there is a 3-month time period where
the accounting of photocopiers is incomplete because newly purchased photocopiers
are not included on the inventory.

CONCLUSIONS AND RECOMMENDATIONS
SSA uses more than 2,100 digital photocopiers with memories capable of retaining
sensitive information and can take steps to mitigate the information security risks posed
by digital photocopiers. We determined that SSA had a documented policy to sanitize
or destroy information contained on hard drives; however, SSA had not applied the
policy to digital photocopiers. For example, SSA traded-in old photocopiers to vendors
without SSA sanitizing or destroying information on their hard drives. Also, agreements
between SSA and vendors did not include the required non-disclosure language. We
also found SSA’s inventory did not always accurately identify photocopiers with hard
Page 6 - The Commissioner

drives or account for photocopiers within a reasonable period. To ensure that SSA fully
complies with Federal law and Agency policy, as well as ensure that SSA adequately
accounts for its photocopier inventory, we recommend SSA:

1. Establish procedures for sanitizing or destroying photocopier hard drives.

2. Amend the maintenance provision in current BPAs and in future agreements to
   include the required non-disclosure statement by the servicing vendor when the
   photocopier is sent off-site for repair.

3. Implement an automated photocopier inventory system that includes the capability of
   tracking the existence of hard drives.

4. Record all digital photocopier purchases to the automated tracking system within a
   reasonable time after the equipment is received and installed.

AGENCY COMMENTS
SSA agreed with our recommendations. The full text of the Agency’s comments is
included in Appendix C.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms

BPA           Blanket Purchase Agreement
ISSH          Information Systems Security Handbook
OAG           Office of Acquisition and Grants
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
RMT           Reprographic Management Team
SSA           Social Security Administration
U.S.C.        United States Code
                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we

•   Reviewed the applicable sections of the Privacy Act of 1974, Federal Information
    Security Management Act of 2002, Federal Acquisition Regulations, Social Security
    Administration’s (SSA) Program Operations Manual System, Administrative
    Instructions Manual System and Information Systems Security Handbook.

•   Considered the security implications of Office of Management and Budget
    Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
    Information, July 12, 2006.

•   Interviewed SSA employees from the Center for Office Property, Office of
    Acquisition and Grants, and Office of Information Technology Security Policy.

•   Obtained a database of photocopiers in use nationwide. We performed limited
    testing on the data and found them to be sufficiently reliable to meet our audit
    objectives.

•   Selected and reviewed six photocopier models with hard drives on SSA’s database.
    These 6 models totaled 1,626 (75 percent) of the 2,173 inventoried photocopiers
    with hard drives.

•   Obtained a database of photocopiers traded in for new photocopiers in
    Calendar Years 2006 and 2007.

We performed audit work between December 2007 and May 2008 in Baltimore,
Maryland, and Dallas, Texas. The entity audited was SSA’s Office of Publications and
Logistics Management under the Deputy Commissioner for Budget, Finance and
Management. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY


MEMORANDUM


Date:     September 3, 2008                                                     Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     David V. Foster /s/ J. Winn for DVF
          Executive Counselor to the Commissioner

Subject   Office of the Inspector General (OIG) Draft Report, “Risks Posed by Digital Photocopiers Used
:         in Social Security Administration Offices” (A-06-08-28076)--INFORMATION


          We appreciate OIG’s efforts in conducting this review. Attached is our response to the
          recommendations.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


          Attachment




                                                       C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RISKS POSED BY DIGITAL PHOTOCOPIERS USED IN SOCIAL
SECURITY ADMINISTRATION OFFICES” (A-06-08-28076)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Establish procedures for sanitizing or destroying photocopier hard drives.

Comment

We agree. In November 2007, we began efforts to incorporate a hard drive sanitization policy
into all photocopier purchase and maintenance Blanket Purchase Agreements (BPA). We
included statements in the BPAs addressing sanitizing hard drives for all trade-ins. In July 2008,
we began processing procurements with the hard drive sanitization requirements. We require
each vendor to complete a hard drive certification form and instruction sheet certifying that each
photocopier with a hard drive has automatic hard drive overwrite capability or that the contractor
has erased/destroyed all data on the hard drive for each photocopier model.

By December 30, 2008, we will amend the Administrative Instructions Manual System (AIMS)
guidelines and post updated policies to our website at http://ssahost.ba.ssa.gov/oplm/default.cfm.

Recommendation 2

Amend the maintenance provision in current BPAs and in future agreements to include the
required non-disclosure statement by the servicing vendor when the photocopier is sent off-site
for repair.

Comment

We agree. We amended all current maintenance BPAs to include a requirement specifying that
the contractor must overwrite (wipe) or destroy all data on the hard drive and certify this
information on a hard drive certification form each time a photocopier is removed from our
premises for any reason. In June 2008, the vendors signed the BPA modifications. We also
added this new requirement for all future Statements of Work requesting vendor bids.

The hard drive security provisions will be included in all future maintenance agreements. By
December 30, 2008, we will amend the AIMS guidelines and post the updated policies to our
website at http://ssahost.ba.ssa.gov/oplm/default.cfm.




                                              C-2
Recommendation 3

Implement an automated photocopier inventory system that includes the capability of tracking
the existence of hard drives.

Comment

We agree. In September 2007, we awarded a contract to Annams, Inc., to create an automated
inventory management system to track photocopiers. The new system will be a module of our
existing Sunflower Assets system. In June 2008, Annams completed a prototype demonstration.
On August 19, 2008, we delivered to Annams all photocopier data for migration into the new
inventory management system. The data files for migration will include hard drive information
for each photocopier. September 30, 2008, is our target date for completing the new automated
system. However, all photocopiers are now manufactured to include hard drives and while we
agree with the recommendation for existing copiers, we believe it will be unnecessary to
specifically track the existence of hard drives of copiers purchased in the future.

Recommendation 4

Record all digital photocopier purchases to the automated tracking system within a reasonable
time after the equipment is received and installed.

Comment

We agree. We have already incorporated language in current BPAs addressing the reporting
requirement for contractors providing photocopiers to us. This procedure includes our newly
created Proof of Install (POI) form for all new photocopier installations. The vendor must
complete the form and obtain our signature at the installation site. The vendor must submit the
form to us by the 15th of the month following installation. The POI form will be included in all
future copier agreements as a requirement under delivery and installation procedures. As cited
above, our photocopier inventory system scheduled to be operational in September 2008 will
allow us to upload delivery and installation data to the automated system in a timely manner.




                                              C-3
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Ron Gunia, Director, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments
In addition to those named above:

   Lela Cartwright, Senior Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-28076.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
